  Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL

       NORIDIAN HEALTHCARE
  SOLUTIONS, LLC, UNDERSTATED
      ITS MEDICARE SEGMENT
ALLOCABLE POSTRETIREMENT BENEFIT
    COSTS AND OVERSTATED ITS
    OTHER SEGMENT ALLOCABLE
POSTRETIREMENT BENEFIT COSTS FOR
CALENDAR YEARS 2006 THROUGH 2010


     Inquiries about this report may be addressed to the Office of Public Affairs at
                              Public.Affairs@oig.hhs.gov.



                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                       March 2014
                                                      A-07-13-00422
                           Office of Inspector General
                                            https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of
Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often
lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

 Noridian Healthcare Solutions, LLC, understated its allocable postretirement benefit
 (PRB) costs for the Medicare segment by $540,000 and overstated its allocable PRB
 costs for the Other segment by $1.5 million for calendar years 2006 through 2010.


WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their postretirement benefit
(PRB) costs, which are funded by the contributions that these contractors make to their dedicated
trust fund. The amount of PRB costs that the Centers for Medicare & Medicaid Services (CMS)
reimburses to the contractors is determined by the cost reimbursement principles contained in the
Federal Acquisition Regulation (FAR) as required by the Medicare contracts.

For this review, we focused on one Medicare contractor, Noridian Healthcare Solutions, LLC
(NHS). In particular, we examined the Medicare segment and Other segment allocable PRB
costs (which for this report we will refer to as “PRB costs”) that NHS used to calculate the
indirect cost rates in its incurred cost proposals (ICPs).

The objective of this review was to determine whether the allocable PRB costs that NHS used to
calculate the indirect cost rates in its ICPs, under the provision of its Medicare administrative
contractor (MAC) contracts, for calendar years (CYs) 2006 through 2010 complied with Federal
requirements.

BACKGROUND

During our audit period, NHS, formerly Noridian Administrative Services, LLC (NAS), was a
subsidiary of Noridian Mutual Insurance Company (NMIC), whose home office was and is in
Fargo, North Dakota. NHS administered Medicare Parts A and B and Durable Medical
Equipment operations under cost reimbursement contracts with CMS. With the implementation
of Medicare contracting reform, NHS continued administering these Medicare operations after
receiving the MAC contracts for Jurisdictions D and 3, effective June 30, 2006, and July 31,
2006, respectively.

During our audit period, NHS administered both fiscal intermediary and carrier contracts and
MAC-related contracts. This report addresses the PRB cost that NHS used in its calculation of
its indirect cost rates under the provisions of its MAC-related contracts. We reviewed the PRB
costs claimed by NHS under the provisions of its fiscal intermediary and carrier contracts and are
reporting those findings in Noridian Healthcare Solutions, LLC, Claimed Some Unallowable
Medicare Postretirement Benefit Costs for Fiscal Years 2006 Through 2010 (A-07-13-00421).

Also, effective May 13, 2013, NAS changed its name to NHS. Although we have addressed our
report to NMIC, we will associate the term NHS with our findings and recommendations
regarding the Medicare allocable PRB costs.


Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)                  i
Under the provisions of Medicare contracting reform, CMS transferred the functions of the fiscal
intermediaries and carriers, that had executed the fiscal intermediary and carrier contracts, to
MACs. Under the MAC contracts, the method by which Medicare reimbursed PRB costs to the
contractors changed from a cost reimbursement basis to an indirect cost basis. In accordance
with the FAR and the MAC contract, reimbursement of indirect costs was now based on indirect
cost rates that met the negotiated indirect cost rates determined in the contracts.

We reviewed $9,660,904 of Medicare segment PRB costs used by NHS in the calculation of its
indirect cost rates, under the provision of its MAC contracts, for CYs 2006 through 2010. We
also reviewed $19,043,991 of Other segment PRB costs used by NHS in the calculation of its
indirect cost rates for this same time period.

WHAT WE FOUND

Neither the Medicare segment nor the Other segment allocable PRB costs that NHS used to
calculate the indirect cost rates in its ICPs complied with Federal requirements. Specifically, for
CYs 2006 through 2010:

    •   NHS used Medicare segment PRB costs of $9,660,904 to calculate its indirect cost rates
        in its ICPs; however, we determined that the Medicare segment PRB costs that should
        have been used to calculate the indirect cost rates were $10,201,343. Thus, NHS
        understated the Medicare segment PRB costs used to calculate its indirect cost rates by
        $540,439.

    •   NHS used Other segment PRB costs of $19,043,991 to calculate its indirect cost rates in
        its ICPs; however, we determined that the Other segment PRB costs that should have
        been used to calculate the indirect cost rates were $17,512,928. Thus, NHS overstated
        the Other segment PRB costs used to calculate its indirect cost rates by $1,531,063.

These overstatements occurred because NHS used incorrect PRB costs to calculate its indirect
cost rates for CYs 2006 through 2010.

CMS should use the information contained in this report and the related report (A-07-13-00421)
when determining the allowable Medicare segment PRB costs for NHS.

WHAT WE RECOMMEND

We recommend that NHS:

    •   increase the Medicare segment PRB costs used to calculate its indirect cost rates by
        $540,439 for CYs 2006 through 2010,

    •   decrease the Other segment PRB costs used to calculate its indirect cost rates by
        $1,531,063 for CYs 2006 through 2010, and



Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)                ii
    •   work with CMS to determine the allowable Medicare segment PRB costs related to the
        MAC contract.

AUDITEE COMMENTS

In written comments on our draft report, NHS concurred with our recommendations and said that
it would increase the Medicare segment pension costs and decrease the Other segment pension
costs for CYs 2006 through 2010. NHS also said that it would work with CMS to determine the
allowable Medicare segment pension costs related to the MAC contract.




Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)           iii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................... 1

           Why We Did This Review .................................................................................................. 1

           Objective ............................................................................................................................. 1

           Background ......................................................................................................................... 1
                 Noridian Healthcare Solutions, LLC. ..................................................................... 1
                 Medicare Reimbursement of Postretirement Benefit Costs .................................... 2

           How We Conducted This Review....................................................................................... 2

FINDINGS ...................................................................................................................................... 3

           Medicare Segment Postretirement Benefit Costs. .............................................................. 3
           Other Segment Postretirement Benefit Costs ..................................................................... 4

RECOMMENDATIONS ................................................................................................................ 5

AUDITEE COMMENTS................................................................................................................ 5

APPENDIXES

    A: Audit Scope and Methodology ............................................................................................ 6

    B: Federal Requirements Related to Reimbursement
       of Postretirement Benefit Costs ........................................................................................... 8

    C: Allocable Medicare Postretirement Benefit Costs for
       Noridian Healthcare Solutions, LLC,
       for Calendar Years 2006 Through 2010 .............................................................................. 9

    D: Auditee Comments............................................................................................................. 12




Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)                                                               iv
                                               INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their postretirement benefit
(PRB) costs, which are funded by the contributions that these contractors make to their dedicated
trust fund. The amount of PRB costs that the Centers for Medicare & Medicaid Services (CMS)
reimburses to the contractors is determined by the cost reimbursement principles contained in the
Federal Acquisition Regulation (FAR) as required by the Medicare contracts.

For this review, we focused on one Medicare contractor, Noridian Healthcare Solutions, LLC
(NHS). In particular, we examined the Medicare segment and Other segment allocable PRB
costs (which for this report we will refer to as “PRB costs”) that NHS used to calculate the
indirect cost rates in its incurred cost proposals (ICPs).

OBJECTIVE

Our objective was to determine whether the allocable PRB costs that NHS used to calculate the
indirect cost rates in its ICPs, under the provisions of its Medicare administrative contractor
(MAC) contracts, for calendar years (CYs) 2006 through 2010 complied with Federal
requirements.

BACKGROUND

Noridian Healthcare Solutions, LLC

During our audit period, NHS, formerly Noridian Administrative Services, LLC (NAS), was a
subsidiary of Noridian Mutual Insurance Company (NMIC), whose home office was and is in
Fargo, North Dakota. NHS administered Medicare Parts A and B and Durable Medical
Equipment (DME) operations under cost reimbursement contracts with CMS. With the
implementation of Medicare contracting reform, NHS continued administering these Medicare
operations after receiving the MAC contracts 1 for Jurisdictions D and 3, effective June 30, 2006,
and July 31, 2006, respectively. 2, 3




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P. L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to MACs between October 2005 and
October 2011. Most, but not all, of the MACs are fully operational; for jurisdictions where the MACs are not fully
operational, the fiscal intermediaries and carriers continue to process claims. For purposes of this report, the terms
“Medicare contractor” and “MAC” mean the fiscal intermediary, carrier, or MAC, whichever is applicable.
2
 DME Jurisdiction D comprises the States of Alaska, Arizona, Hawaii, Idaho, Iowa, Kansas, Missouri, Montana,
Nebraska, Nevada, North Dakota, Oregon, South Dakota, Utah, Washington, and Wyoming, and the territories of
American Samoa, Guam, and the Northern Mariana Islands.
3
 Medicare Part A and B Jurisdiction 3 comprises the States of Arizona, Montana, North Dakota, South Dakota,
Utah, and Wyoming.


Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)                                       1
During our audit period, NHS administered both fiscal intermediary and carrier contracts and
MAC-related contracts. This report addresses the PRB costs that NHS used in it calculation of
its indirect cost rates under the provisions of its MAC-related contracts. We reviewed the PRB
costs claimed by NHS under the provisions of its fiscal intermediary and carrier contracts and are
reporting those findings in Noridian Healthcare Solutions, LLC, Claimed Some Unallowable
Medicare Postretirement Benefit Costs for Fiscal Years 2006 Through 2010 (A-07-13-00421).

Also, effective May 13, 2013, NAS changed its name to NHS. Although we have addressed our
report to NMIC, we will associate the term NHS with our findings and recommendations
regarding the Medicare allocable PRB costs.

NHS participates in a voluntary employee benefit association (VEBA) trust for the purpose of
funding annual PRB accruals. Furthermore, NHS’s accounting practice, approved by CMS, uses
segmented accrual accounting for its PRB plans.

During 2006, NHS amended its disclosure statement to implement pooled costing. Medicare
contractors use pooled costing to calculate the indirect cost rates that they submit on their ICPs.
The PRB costs are included in the computation of the indirect cost rates reported on the ICPs.
The FAR requires Medicare contractors to file final indirect cost rates on their ICPs 6 months
after the year end. In turn, CMS uses these indirect cost rates when reimbursing costs for cost-
plus-award-fee type contracts. 4

Medicare Reimbursement of Postretirement Benefit Costs

CMS reimburses a portion of the funded accruals that contractors charge for their PRB plans.
FAR 31.205-6(o) requires that, to be allowable for Medicare reimbursement, PRB accrual costs
be (1) determined in accordance with generally accepted accounting principles and (2) funded
into a dedicated trust, such as a VEBA trust.

Under the provisions of Medicare contracting reform, CMS transferred the functions of the fiscal
intermediaries and carriers, that had executed the fiscal intermediary and carrier contracts, to
MACs. Under the MAC contracts, the method by which Medicare reimbursed PRB costs to the
contractors changed from a cost reimbursement basis to an indirect cost basis. In accordance
with the FAR and the MAC contract, reimbursement of indirect costs was now based on indirect
cost rates that met the negotiated indirect cost rates determined in the contracts.

HOW WE CONDUCTED THIS REVIEW

We reviewed $9,660,904 of Medicare segment PRB costs used by NHS in the calculation of its
indirect cost rates, under the provisions of its MAC contracts, for CYs 2006 through 2010. We
also reviewed $19,043,991 of Other segment PRB costs used by NHS in the calculation of its
indirect cost rates for this same time period.


4
 A cost-plus-award-fee contract is a cost reimbursement contract that provides for a fee consisting of (a) a base
amount fixed at inception of the contract and (b) an award amount, based upon a judgmental evaluation by the
Federal Government.


Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)                                  2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                  FINDINGS

Neither the Medicare segment nor the Other segment allocable PRB costs that NHS used to
calculate the indirect cost rates in its ICPs complied with Federal requirements. Specifically, for
CYs 2006 through 2010:

    •   NHS used Medicare segment PRB costs of $9,660,904 to calculate its indirect cost rates
        in its ICPs; however, we determined that the Medicare segment PRB costs that should
        have been used to calculate the indirect cost rates were $10,201,343. Thus, NHS
        understated the Medicare segment PRB costs used to calculate its indirect cost rates by
        $540,439.

    •   NHS used Other segment PRB costs of $19,043,991 to calculate its indirect cost rates in
        its ICPs; however, we determined that the Other segment PRB costs that should have
        been used to calculate the indirect cost rates were $17,512,928. Thus, NHS overstated
        the Other segment PRB costs used to calculate its indirect cost rates by $1,531,063.

These overstatements occurred because NHS used incorrect PRB costs to calculate its indirect
cost rates for CYs 2006 through 2010.

CMS should use the information contained in this report and the related report (A-07-13-00421)
when determining the allowable Medicare segment PRB costs for NHS. 5

MEDICARE SEGMENT POSTRETIREMENT BENEFIT COSTS

NHS used accrued PRB costs of $9,660,904 to calculate its indirect cost rates for the Medicare
segment. We calculated the accrued PRB costs for CYs 2006 through 2010 for the Medicare
segment in accordance with the FAR. For details on the Federal requirements, see Appendix B.

We determined that the accrued PRB costs for the Medicare segment were $10,201,343 for CYs
2006 through 2010. Thus, NHS understated the Medicare segment PRB costs, used to calculate
its indirect cost rates for this time period, by $540,439. This understatement occurred because

5
  Our review of the allocable PRB costs for NHS identified the amount of PRB costs that should have been used to
allocate PRB costs to the Medicare and Other segments. CMS should use the information in this report, as well as
the information from our review of the fiscal intermediary and carrier contract PRB costs claimed by NHS
(A-07-13-00421), to determine the allowable PRB costs for NHS. In addition, CMS will use the information
provided by the audit organization that reviews the ICPs (regarding their compliance with the CAS) to determine the
final indirect cost rates for NHS.


Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)                                3
NHS used incorrect PRB costs when calculating the indirect cost rates for this time period. More
specifically, this understatement of the PRB costs occurred primarily because of differences in
the identification of the Medicare segment participants.

Table 1 below shows the difference between the Medicare segment PRB costs that we calculated
and the PRB costs that NHS used to calculate its indirect cost rates for CYs 2006 through 2010.
Appendix C contains additional details on PRB costs.

      Table 1: Comparison of Postretirement Benefit Costs for the Medicare segment

                          Medicare Segment Postretirement Benefit Costs
                    Calendar
                     Year             Per Audit           Per NHS            Difference
                      2006             $3,679,923         $3,868,917          ($188,994)
                      2007              2,983,795          2,776,806              206,989
                      2008              2,496,551          2,290,116              206,435
                      2009              1,041,074            725,065              316,009
                      2010                      0                  0                    0
                     Total            $10,201,343         $9,660,904            $540,439

OTHER SEGMENT POSTRETIREMENT BENEFIT COSTS

NHS used accrued PRB costs of $19,043,991 to calculate its indirect cost rates for the Other
segment. We calculated the accrued PRB costs for CYs 2006 through 2010 for the Other
segment in accordance with the FAR. For details on the Federal requirements, see Appendix B.

We determined that the accrued PRB costs for the Other segment were $17,512,928 for CYs
2006 through 2010. Thus, NHS overstated the Other segment PRB costs, used to calculate its
indirect cost rates for this time period, by $1,531,063. This overstatement occurred because
NHS used incorrect PRB costs when calculating the indirect cost rates for this time period. More
specifically, this overstatement of the PRB costs occurred primarily because of differences in the
identification of the Medicare segment participants.

Table 2 on the following page shows the difference between the Other segment PRB costs that
we calculated and the PRB costs that NHS used to calculate the indirect cost rates for CYs 2006
through 2010. Appendix C contains additional details on PRB costs.




Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)                4
        Table 2: Comparison of Postretirement Benefit Costs for the Other Segment

                            Other Segment Postretirement Benefit Costs
                    Calendar
                     Year           Per Audit          Per NHS             Difference
                      2006          $5,564,635          $5,977,953            ($413,318)
                      2007           5,193,471           5,769,690             (576,219)
                      2008           4,488,891           5,021,413             (532,522)
                      2009           2,170,905           2,274,935             (104,030)
                      2010              95,026                   0                95,026
                     Total         $17,512,928         $19,043,991          ($1,531,063)

                                        RECOMMENDATIONS

We recommend that NHS:

    •   increase the Medicare segment PRB costs used to calculate its indirect cost rates by
        $540,439 for CYs 2006 through 2010,

    •   decrease the Other segment PRB costs used to calculate its indirect cost rates by
        $1,531,063 for CYs 2006 through 2010, and

    •   work with CMS to determine the allowable Medicare segment PRB costs related to the
        MAC contract.

                                        AUDITEE COMMENTS

In written comments on our draft report, NHS concurred with our recommendations and said that
it would increase the Medicare segment pension costs and decrease the Other segment pension
costs for CYs 2006 through 2010. NHS also said that it would work with CMS to determine the
allowable Medicare segment pension costs related to the MAC contract. NHS’s comments are
included in their entirety as Appendix D.




Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)             5
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $9,660,904 of Medicare segment PRB costs used by NHS in the calculation of its
indirect cost rates, under the provisions of its MAC contracts, for CYs 2006 through 2010. We
also reviewed $19,043,991 of Other segment PRB costs used by NHS in the calculation of its
indirect cost rates for this same period.

Achieving our objective did not require that we review NHS’s overall internal control structure.
We reviewed the internal controls related to the PRB costs claimed for Medicare reimbursement
to ensure that the PRB costs were allocable in accordance with the FAR and the MAC contract.

We performed fieldwork at NHS’s office in Fargo, North Dakota, in April and May 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed the portions of the FAR and Medicare contracts applicable to this audit;

    •   reviewed accounting records and ICP information provided by NHS to identify the
        amount of PRB costs used to calculate NHS’s indirect cost rates for CYs 2006 through
        2010;

    •   used information that NMIC’s actuarial consulting firms provided, including information
        on VEBA assets, PRB obligations, service costs, contributions, claims paid, claims
        reimbursed, investment earnings, and administrative expenses;

    •   examined NHS’s PRB plan documents and annual actuarial valuation reports, which
        included Statement of Financial Accounting Standards (SFAS) 106 information;

    •   determined the extent to which NHS funded PRB costs with contributions to the VEBA
        trust, accumulated prepayment credits, and direct payment;

    •   engaged the CMS Office of the Actuary to calculate the PRB costs based on the SFAS
        106 methodology applied in accordance with FAR 31.205-6(o); and

    •   reviewed and verified the CMS actuaries’ methodology and calculations and used this
        information to calculate the PRB costs for the Medicare segment and the Other segment
        for the period of CYs 2006 through 2010.

We performed this review in conjunction with the following audits and used the information
obtained during this review:




Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)                 6
    •   Noridian Healthcare Solutions, LLC, Understated Its Medicare Segment Postretirement
        Benefit Assets as of January 1, 2011 (A-07-13-00420) and

    •   Noridian Healthcare Solutions, LLC, Claimed Some Unallowable Medicare
        Postretirement Benefit Costs for Fiscal Years 2006 Through 2010 (A-07-13-00421).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)             7
   APPENDIX B: FEDERAL REQUIREMENTS RELATED TO REIMBURSEMENT
                 OF POSTRETIREMENT BENEFIT COSTS

FEDERAL REGULATIONS

Federal regulations (FAR 31.205-6(o)) require that PRB accrual costs be determined in
accordance with SFAS 106 and funded into a dedicated trust fund, such as a VEBA trust. The
FAR states that accrual accounting may be used to determine the allowable PRB costs if the cost
is measured and assigned (actuarially determined) according to generally accepted accounting
principles based on amortization of any transition obligation. Costs attributable to past service
(transition obligation) must be assigned under the delayed recognition methodology described in
paragraphs 112 and 113 of SFAS 106. The FAR also states that allowable costs must be funded
by the time set for filing the Federal income tax return or any extension thereof, and must
comply with the applicable standards promulgated by the Cost Accounting Standards (CAS)
Board.

Federal regulations (FAR 52.216-7(a)(1)) address the invoicing requirements and the
allowability of payments as determined by the Contracting Officer in accordance with FAR
subpart 31.2.

MEDICARE CONTRACTS

The contracts state: “Once each month following the effective date of this contract, the
Contractor may submit to the Government an invoice for payment, in accordance with FAR
clause 52.216-7, ‘Allowable Cost & Payment.’”




Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)              8
         APPENDIX C: ALLOCABLE MEDICARE POSTRETIREMENT BENEFIT COSTS FOR 

                        NORIDIAN HEALTHCARE SOLUTIONS, LLC, 

                        FOR CALENDAR YEARS 2006 THROUGH 2010


                                                                        Total          Other        Medicare
           Date                      Description                       Company        Segment       Segment

           2006            Contributions                        1/      $7,559,069    $4,550,308     $3,008,761
                           Discount for Interest                2/       ($247,879)    ($149,029)      ($98,850)
     January 1, 2006       Present Value Contributions          3/      $7,311,190    $4,401,279     $2,909,911
                           Prepayment Credit Applied            4/      $1,685,599    $1,014,446       $671,153
                           Present Value of Funding             5/      $8,996,789    $5,415,725     $3,581,064

     January 1, 2006       CAS Funding Target                   6/      $9,389,140    $5,650,678     $3,738,462
                           Percentage Funded                    7/                        95.84%         95.79%
                           Funded PRB Cost                      8/                    $5,415,610     $3,581,073
                           Allowable Interest                   9/                      $149,025        $98,850
           2006            CY Allocable PRB Cost               10/                    $5,564,635     $3,679,923


                                                                        Total          Other        Medicare
           Date                      Description                       Company        Segment       Segment

           2007            Contributions                                $8,177,157    $5,193,360     $2,983,797
                           Discount for Interest                         ($288,178)    ($182,731)     ($105,447)
     January 1, 2007       Present Value Contributions                  $7,888,979    $5,010,629     $2,878,350
                           Prepayment Credit Applied                            $0            $0             $0
                           Present Value of Funding                     $7,888,979    $5,010,629     $2,878,350

     January 1, 2007       CAS Funding Target                           $8,039,499    $5,105,702     $2,933,797
                           Percentage Funded                                              98.14%         98.11%
                           Funded PRB Cost                                            $5,010,736     $2,878,348
                           Allowable Interest                                           $182,735       $105,447
           2007            CY Allocable PRB Cost                                      $5,193,471     $2,983,795


                                                                        Total          Other        Medicare
           Date                      Description                       Company        Segment       Segment

           2008            Contributions                                $7,123,390    $4,626,839     $2,496,551
                           Discount for Interest                         ($152,172)     ($98,998)      ($53,174)
     January 1, 2008       Present Value Contributions                  $6,971,218    $4,527,841     $2,443,377
                           Prepayment Credit Applied                            $0            $0             $0
                           Present Value of Funding                     $6,971,218    $4,527,841     $2,443,377

     January 1, 2008       CAS Funding Target                           $6,836,222    $4,392,845     $2,443,377
                           Percentage Funded                                             100.00%        100.00%
                           Funded PRB Cost                                            $4,392,845     $2,443,377
                           Allowable Interest                                            $96,046        $53,174
           2008            CY Allocable PRB Cost                                      $4,488,891     $2,496,551


Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)                             9
                                                                        Total          Other          Medicare
           Date                      Description                       Company        Segment         Segment

           2009            Contributions                                $3,070,032    $2,075,408          $994,624
                           Discount for Interest                          ($88,496)     ($59,735)         ($28,761)
     January 1, 2009       Present Value Contributions                  $2,981,536    $2,015,673          $965,863
                           Prepayment Credit Applied                      $142,083       $95,613           $46,470
                           Present Value of Funding                     $3,123,619    $2,111,286        $1,012,333

     January 1, 2009       CAS Funding Target                           $5,200,172    $3,499,375        $1,700,797
                           Percentage Funded                                              60.33%            59.52%
                           Funded PRB Cost                                            $2,111,173        $1,012,314
                           Allowable Interest                                            $59,732           $28,760
           2009            CY Allocable PRB Cost                                      $2,170,905        $1,041,074


                                                                        Total          Other          Medicare
           Date                      Description                       Company        Segment         Segment

           2010            Contributions                                   $95,029      $95,029                  $0
                           Discount for Interest                           ($2,370)     ($2,370)                 $0
     January 1, 2010       Present Value Contributions                     $92,659      $92,659                  $0
                           Prepayment Credit Applied                            $0           $0                  $0
                           Present Value of Funding                        $92,659      $92,659                  $0

     January 1, 2010       CAS Funding Target                             $127,942     $127,942                  $0
                           Percentage Funded                                             72.42%               0.00%
                           Funded PRB Cost                                              $92,656                  $0
                           Allowable Interest                                            $2,370                  $0
           2010            CY Allocable PRB Cost                                        $95,026                  $0




ENDNOTES

 1/ We calculated Total Company contributions by taking the contributions amounts from the PRB actuarial
    valuation reports plus any direct benefit payments that were not reimbursed by the VEBA trust, as provided by
    NHS. Direct benefit payments for each year are considered to be funded en masse in the middle of each
    calendar year (CY). Such contributions can be used to satisfy the funding requirement of FAR 31.205-
    6(o)(2)(iii). The contributions included deposits made during the plan year (PY) and the discounted value of
    accrued contributions, if any, deposited after the end of the PY but within the time allowed for filing tax
    returns.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation
    year to discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix,
    we computed the interest as the difference between the present value of contributions and actual contribution
    amounts. Interest is determined using the expected long-term rate of return assumption as reported in the PRB
    actuarial valuation report.


Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)                               10
 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to
    the first day of the CY.

 4/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A
    prepayment credit is created when contributions, plus interest, exceed the end-of-year CAS funding target. A
    prepayment credit is carried forward, with interest, to fund future PRB costs.

 5/ The present value of funding represents the present value of contributions plus prepayment credits plus direct
    benefit payments. This is the amount of funding that is available to cover the CAS funding target measured at
    the first day of the CY.

 6/ The CAS funding target is based on the assignable PRB costs computed during our review. The CAS funding
    target must be funded by accumulated prepayment credits or current year contributions or direct benefit
    payments to satisfy the funding requirements for the FAR.

 7/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during
    the CY. Because any funding in excess of the CAS funding target is accounted for as a prepayment, the
    funded ratio may not exceed 100 percent. We computed the percentage funded as the present value of funding
    divided by the CAS funding target. For purposes of illustration, the percentage of funding has been rounded to
    four decimal places.

 8/ We computed the funded PRB cost as the CAS funding target multiplied by the percent funded.

 9/ We assumed that interest on the funded PRB cost, less the prepayment credit, accrues in the same proportion
    as the interest on contributions bears to the present value of contributions. However, we limited the interest in
    accordance with FAR 31.205-6(o)(4), which provides that interest costs are unallowable if caused by a delay in
    funding beyond 30 days after the end of each quarter to which they are assigned.

10/ The CY allocable PRB cost is the amount of PRB cost that may be allocated for contract cost purposes.




Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)                               11
                                    APPENDIX D: AUDITEE COMMENTS





                                                         ~
                                                        NOR/DIAN"
                                                        M utual fnsurance Compa ny




            February 6, 2014




            Mr. Patrick J. Cogley
            Regional Inspector General for Audit Services
            Office of Aud it Services, Region VII
            601 East 12th Street, Room 0429
            Kansas City, MO 64106


            Re: Report A-07-13-00422



            Dear Mr. Cogley,

            We have reviewed your draft report entitled Noridian Healthcare Solutions, LLC, Understated Its
            Allocable Pension Costs for Calendar Years 2006 Through 2010 and offer the following comments:


            Recommendations:
               •  Increase the Medicare segment PRB costs used to calculate its indirect cost rates by $540,439
                  for CYs 2006 through 2010,
                      o We concur with this recommendation and will increase the Medicare segment PRB costs
                           for CYs 2006 through 2010.

                 •     Decrease the Other segment PRB costs used to calculate its indirect cost rates by $1,531,063 for
                       CYs 2006 through 20 LO, and
                           o We concur with this recommendation and will decrease the Other segment PRB costs
                              for CYs 2006 through 2010.

                  •    Work with CMS to determine the allowable Medicare segment pensions costs related to the
                       MAC contract.
                         o We concur with this recommendation and will work with CMS t o determine the
                             allowable Mr!dicare segment pension costs related to the MAC contract.



            Sincerely,



             Brian Fellner
             Enterprise Vice President and Chief Financial Officer




            2930503S                         4510 13th Avenue South • Fargo, North Dakota 581 2t                    8-07




Noridian Healthcare Solutions, LLC, Allocable Postretirement Costs (A-07-13-00422)                                         12
